<html>
<title> - LONG-TERM MANAGEMENT OPTIONS FOR THE BUREAU OF LAND MANAGEMENT'S WILD HORSE AND BURRO PROGRAM</title>
<body><pre>[Senate Hearing 116-329]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 116-329

                    LONG-TERM MANAGEMENT OPTIONS FOR
                    THE BUREAU OF LAND MANAGEMENT'S
                      WILD HORSE AND BURRO PROGRAM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                   PUBLIC LANDS, FORESTS, AND MINING

                                 OF THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 16, 2019

                               __________
                               
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               


                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov        
        
                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
37-811                     WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               JOE MANCHIN III, West Virginia
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       MARIA CANTWELL, Washington
STEVE DAINES, Montana                BERNARD SANDERS, Vermont
BILL CASSIDY, Louisiana              DEBBIE STABENOW, Michigan
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
CINDY HYDE-SMITH, Mississippi        MAZIE K. HIRONO, Hawaii
MARTHA McSALLY, Arizona              ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           CATHERINE CORTEZ MASTO, Nevada
JOHN HOEVEN, North Dakota
                                 ------                                

           Subcommittee on Public Lands, Forests, and Mining

                           MIKE LEE, Chairman

JOHN BARRASSO                        RON WYDEN
JAMES E. RISCH                       MARIA CANTWELL
STEVE DAINES                         DEBBIE STABENOW
BILL CASSIDY                         MARTIN HEINRICH
CORY GARDNER                         MAZIE K. HIRONO
CINDY HYDE-SMITH                     ANGUS S. KING, JR.
MARTHA McSALLY                       CATHERINE CORTEZ MASTO
JOHN HOEVEN

                      Brian Hughes, Staff Director
                     Kellie Donnelly, Chief Counsel
                   Lucy Murfitt, Deputy Chief Counsel
                Nick Matiella, Professional Staff Member
                Sarah Venuto, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
          Elliot Howard, Democratic Professional Staff Member
                            
                            
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Lee, Hon. Mike, Subcommittee Chairman and a U.S. Senator from 
  Utah...........................................................     1

                               WITNESSES

Tryon, Steve, Deputy Assistant Director for Resources and 
  Planning, Bureau of Land Management, U.S. Department of the 
  Interior.......................................................     3
Thacker, Dr. Eric, Associate Professor, Rangeland Science, Utah 
  State University...............................................     9
Lane, Ethan L., Chairman, National Horse and Burro Rangeland 
  Management Coalition...........................................    15
Perry, Nancy, Senior Vice President, Government Relations, 
  American Society for the Prevention of Cruelty to Animals 
  (ASPCA)........................................................    40
Goicoechea, Hon. Julian J. (J.J.), Chairman, Eureka County 
  (Nevada) Board of Commissioners................................    61

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

American Mustang Foundation:
    Letter for the Record........................................   108
American Wild Horse Campaign:
    Statement for the Record.....................................   112
    Letter addressed to the U.S. House and Senate Appropriations 
      Committee dated 5/21/19....................................   113
    Moving Forward: A Unified Statement on the Humane, 
      Sustainable, and Cost-Effective On-Range Management of 
      America's Wild Horses and Burros dated April 2018..........   116
Animal Protection of New Mexico:
    Letter for the Record........................................   124
Animal Welfare Institute:
    Letter for the Record........................................   126
    Congressional Letter Addressed to Secretary David Bernhardt 
      dated 
      6/21/19....................................................   129
    U.S. Senate Letter Addressed to Secretary David Bernhardt 
      dated 
      7/17/19....................................................   134
Barrasso, Hon. John:
    Written Statement............................................    74
Beaver County (Utah) Commission:
    Letter for the Record........................................    95
Citizens Against Equine Slaughter:
    Affidavit of Dr. Lester Friedlander and Mission Statement....   137
Goicoechea, Hon. Julian J. (J.J.):
    Opening Statement............................................    61
    Written Testimony............................................    63
    Response to Question for the Record..........................   106
Greaves, Linda:
    Statement for the Record.....................................   159
Heart of Phoenix Equine Rescue:
    Statement for the Record.....................................   160
Humane Society Legislative Fund and The Humane Society of the 
  United States:
    Statement for the Record.....................................   162
Kennedy, Robin:
    Letter for the Record........................................   171
Lane, Ethan L.:
    Opening Statement............................................    15
    Written Testimony............................................    17
Lee, Hon. Mike:
    Opening Statement............................................     1
Perry, Nancy:
    Opening Statement............................................    40
    Written Testimony............................................    42
    Responses to Questions for the Record........................   105
Rutberg, Dr. Allen T.:
    Letter for the Record........................................   172
Simpson, William E.:
    Letter for the Record........................................   175
Thacker, Dr. Eric:
    Opening Statement............................................     9
    Written Testimony............................................    11
    Response to Question for the Record..........................   104
Tryon, Steve:
    Opening Statement............................................     3
    Written Testimony............................................     5
    Responses to Questions for the Record........................    99
Utah Department of Agriculture and Food:
    Letter from Commissioner Gibson to Kathleen Clarke dated 7/
      11/19......................................................   177
Utah Farm Bureau Federation:
    Letter for the Record........................................    93
Wild Horse Observers Association:
    Report for the Record........................................   181
    National Plan for Wild Horses on Public Lands................   190

 
 LONG-TERM MANAGEMENT OPTIONS FOR THE BUREAU OF LAND MANAGEMENT'S WILD 
                        HORSE AND BURRO PROGRAM

                              ----------                              


                         TUESDAY, JULY 16, 2019

                               U.S. Senate,
 Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:32 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Mike Lee, 
presiding.

              OPENING STATEMENT OF HON. MIKE LEE, 
                     U.S. SENATOR FROM UTAH

    Senator Lee [presiding]. The Subcommittee on Public Lands, 
Forests, and Mining will come to order. Today's Subcommittee 
hearing is an oversight hearing to examine the long-term 
management options for the Bureau of Land Management's Wild 
Horse and Burro Program.
    Most observers will agree that the program is on a path 
that can only be described as unsustainable. Simply put, we 
have too many horses on our federal public lands, far more than 
was ever contemplated when the Wild Free-Roaming Horses and 
Burros Act was signed into law back in 1971.
    According to BLM, the current on-range population consists 
of roughly 88,000 horses and burros, more than triple the 
established appropriate management level, or AML, which has 
been set at 27,000 animals. As a result, our public lands are 
suffering and, so too, are the horses themselves and the 
burros.
    In arid environments like those found in Utah and in 
Nevada, where half of all wild horses are located, 
overpopulation quickly leads to overgrazing and the phrase 
``eats like a horse'' is not just a metaphor anymore. At least 
it is not a metaphor that is not borne out by something. In 
fact, public lands that exceed AML generally have less 
vegetative cover from overgrazing and are more susceptible to 
invasive plants like cheat grass.
    Consistent overgrazing and hoof compaction also expose the 
soil to the elements causing the land to become increasingly 
barren. This is a process that is sometimes referred to as 
desertification. And when forage is diminished and water 
sources dry up, many native species have trouble surviving, 
including elk, mule deer, pronghorn antelope and sage grouse.
    The 1971 Act directs the BLM to remove excess animals from 
the range to ``maintain a thriving natural, ecological balance 
in a multiple use relationship.''
    We are long past any semblance of multiple use management 
on the rangeland, however. As horse populations have grown out 
of control, the resources for livestock, along with the 
wildlife that attracts sportsmen and outdoor enthusiasts to the 
West, have become depleted.
    Last year, the BLM conducted more horse gathers than ever 
before, rounding up ultimately about 11,000 animals. Half of 
those were categorized by the BLM as emergency removals, in 
some cases, animals that were emaciated, dehydrated or at some 
imminent risk of death.
    These horses joined the nearly 50,000 others that are 
stored in off-range corrals or trucked to pasture somewhere in 
the Midwest, leased by the Bureau of Land Management.
    But holding facilities alone are not a long-term solution. 
They place a huge burden on American taxpayers, especially 
considering that wild horse populations grow by about 20 
percent every year. And the BLM estimates the cost of caring 
for these horses at about $50,000 per animal over its lifetime. 
This ballooning expense is why the budget for the BLM Wild 
Horse and Burro Program has quadrupled since 2002 and now it 
exceeds $85 million per year with costs steadily rising each 
year.
    Unfortunately, restrictions enacted in annual 
appropriations laws actually prohibit the sale of horses for 
commercial processing. As a result, the BLM largely relies on 
animal adoption programs and on a restricted sale program to 
dispose of the excess animals.
    As laudable as the adoption program is, it is never going 
to outpace on-range foaling rates under the current model. And 
for a variety of reasons, the deployment of existing fertility 
control drugs has not proven as effective as hoped. Some herds 
are too remote to be routinely gathered and treated and 
research into other fertility control options, including 
sterilization, is often the subject of litigation.
    During today's hearing I look forward to hearing testimony 
about the current crisis we are facing on the rangeland. I also 
welcome the views of the representatives of cattlemen and of 
the animal welfare community whose organizations have been 
working hard to address it. I am confident that together we can 
find solutions to protect our lands and our ecosystem and to 
preserve the health of our wild horses.
    It is now time to hear from our witnesses. We have five 
witnesses joining us today.
    The first is Mr. Steve Tryon, the Deputy Assistant Director 
for Resources and Planning at the Bureau of Land Management. 
Second is Dr. Eric Thacker, a professor of Rangeland Science at 
Utah State University. Thank you for joining us. Next we have 
Ethan Lane, the Chairman of the National Horse and Burro 
Rangeland Management Coalition. We're also joined by Nancy 
Perry, the Vice President of Government Relations at the 
American Society for the Prevention of Cruelty to Animals 
(ASPCA). And finally, Dr. Goicoechea, the Chairman of the 
Eureka County Board of Commissioners in Nevada.
    At the end of the witness testimonies members will be able 
to ask questions. Your full witness statements will be made 
part of the official record. Please keep your statements to 
five minutes so that we have time for questions. I look forward 
to hearing the testimony from each of you.
    Mr. Tryon, we will start with you. Go ahead.

    STATEMENT OF STEVE TRYON, DEPUTY ASSISTANT DIRECTOR FOR 
    RESOURCES AND PLANNING, BUREAU OF LAND MANAGEMENT, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Tryon. Good afternoon, Chairman Lee and members of the 
Subcommittee. I'm Steve Tryon, the Deputy Assistant Director 
for Resources and Planning at the Bureau of Land Management.
    Thank you for the opportunity to discuss the Bureau of Land 
Management's Wild Horse and Burro Program. The BLM manages wild 
horse and burro herds on approximately 27 million acres of 
public lands located in 10 western states under the authority 
of the Wild Free-Roaming Horses and Burros Act of 1971. The Act 
directs the BLM to manage these herds as populations of healthy 
animals in balance with other uses of the public lands, while 
maintaining the health and productive capacity of the range. 
This dual statutory mandate presents considerable management 
challenges for the BLM. The Bureau takes into account all 
natural resources and authorized uses of the public lands 
consistent with our multiple use and sustained yield mandate 
set out in the Federal Land Policy and Management Act and the 
Wild Horses and Burros Act.
    The BLM has determined that the appropriate management 
level, or AML, for wild horses and burros on the range west-
wide is approximately 27,000 animals. And as you noted, Mr. 
Chairman, the BLM now estimates that as of March of this year, 
more than 88,000 wild horses and burros are currently on BLM-
managed public lands.
    As herd populations exceed AML, forage and water resources 
become depleted threatening the overall health of the public 
rangelands and degrading ecosystems. With insufficient forage 
and water to support herds, the physical health of animals 
declines which leads to starvation, dehydration and eventually, 
death. Consequently, this limits forage and water for native 
wildlife species and permitting livestock grazing.
    Since wild horses have virtually no natural predators and 
herds double in size approximately every four years, the BLM's 
primary tool to ensure that herd sizes are consistent with the 
rangeland's capacity to support them has been to gather excess 
wild horses and burros and remove them from the range. In 
addition to the animals on-range, as of May of this year the 
BLM manages almost 50,000 animals in off-range holding 
facilities. That figure is striking.
    The original authors of the Wild Horses and Burros Act 
could never have contemplated that nearly 50 years after its 
enactment, we would be indefinitely caring for nearly twice as 
many animals as the law was intended to protect on the range.
    After gathers occur, wild horses and burros removed from 
the range enter short-term holding facilities where they are 
prepped for adoption and sale as well as receiving veterinary 
care and this is all prior to being moved to long-term 
pastures. Unless these animals are able to be placed with 
responsible owners, the BLM will spend more than $1 billion 
total to care for and feed them during the remainder of their 
lives.
    The BLM currently spends over 60 percent of the program's 
budget, nearly $50 million in 2018, to care for animals removed 
from the range. Given this significant financial commitment, 
our ability to remove additional animals from the range is 
constrained.
    To overcome this challenge, the BLM is pursuing a 
comprehensive population growth suppression strategy and is 
taking actions to increase placement of horses and burros into 
good homes through training and financial incentives. Since 
1971, the BLM has placed nearly 250,000 animals into private 
care. However, over the past ten years the number of excess 
animals gathered has outpaced adoptions.
    We have recently initiated a new program this year called 
the Adoption Incentive Program that seeks to encourage new 
individuals and new organizations to adopt untrained wild 
horses and burros by paying a small incentive. Over 1,000 
animals have been adopted and placed into good homes during the 
first few months of this program.
    The BLM is encouraged by recent efforts of interested 
parties, including the groups that join me on the witness table 
today, to promote sustainable horse and burro populations on 
healthy rangelands. The BLM is committed to working with 
Congress and stakeholders to develop a sustainable Wild Horse 
and Burro Program.
    Thank you again for the opportunity to present this 
testimony.
    [The prepared statement of Mr. Tryon follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you.
    Dr. Thacker.

 STATEMENT OF DR. ERIC THACKER, ASSOCIATE PROFESSOR, RANGELAND 
                 SCIENCE, UTAH STATE UNIVERSITY

    Dr. Thacker. Thank you, Chairman Lee.
    My name is Eric Thacker. I'm an Associate Professor at Utah 
State University in Rangeland Science.
    We're here today because we are facing a dilemma in the 
West with exponential growth of wild horse and burro 
populations on fragile rangeland ecosystems.
    When managing grazing rangeland, managers carefully control 
the number, how many animals, the time, how long the grazing 
occurs, the timing, the season of use and the intensity, how 
much forage will be removed of livestock to ensure the forage 
and water resources are not damaged.
    Often controlling the number of animals is the easiest 
option. Different grazing management strategies can be 
implemented which vary the time, the timing, the intensity, the 
number of animals, to meet a variety of management outcomes.
    Similarly, wildlife managers manage wildlife populations to 
ensure the sustainability, long-term sustainability, of habitat 
through using hunting to remove excess animals or hunting 
pressure to move animals around the landscape.
    It's also been noted that their natural predators help 
regulate native wildlife populations which, in turn, helps to 
control population growth and protect habitat. Free-roaming 
wild horses and burros have no natural predators; therefore, 
they lack population regulatory mechanisms to limit population 
growth. If left unmanaged, wild horse and burro populations 
will grow rapidly until forage resources are diminished and 
individual horse fitness declines. As individual horse fitness 
declines, the consequences are lower pregnancy rates, lower 
foal survival, lower adult survival, thus limiting the 
population growth of the horses. However, the problem this 
creates is catastrophic.
    Horses are quite resilient so by the time that these 
negative consequences are felt, the range has been severely 
degraded and maybe receive permanent damage. Therefore, 
managing wild horse populations is one of the most critical 
aspects of wild horse management to maintain a thriving 
ecological balance. The reality is that some herd management 
areas (HMAs) are already showing signs of degradation due to 
excess wild horses.
    Research has concluded that too many horses will lead to a 
loss of vegetation which leads to more bare ground, soil loss, 
loss of forage. This also reduces the quality and quantity of 
wildlife habitat.
    Excess wild horses and burros can also negatively impact 
water resources. Research has shown that the presence of wild 
horses reduce the diversity and species richness of native 
wildlife species found using bodies of water in Utah. If wild 
horse and burro populations continue to grow exponentially, 
rangeland and wildlife damage will increase exponentially as 
well.
    Currently, the BLM has limited options to manage wild horse 
and burro populations. The BLM and the Forest Service conduct 
limited gathers in an attempt to round up horses and adopt 
them. They have explored the use of contraceptives and have 
found some limited success; however, the current gather and 
adopt management is not working. Some suggest that allocating 
more land may be the answer. With the rapid growth of horses 
and burros though, that additional land would be used up fairly 
quickly.
    We are in a triage situation. If we do nothing there could 
be 500,000 horses by 2030 at the given, at the current growth 
rates. The complexity of the wild horse and burro problem 
suggests that removal of excess horses coupled with population 
control strategies, contraception and sterilization and 
increased adoptions, to maintain adequate population levels may 
be the best approach.
    We must rely on collaborative solutions that identify 
palatable management options from a diverse group of 
stakeholders that understand and recognize the reality of the 
wild horse and burro problem.
    Thank you.
    [The prepared statement of Dr. Thacker follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Senator Lee. Thank you, Dr. Thacker.
    Mr. Lane.

STATEMENT OF ETHAN L. LANE, CHAIRMAN, NATIONAL HORSE AND BURRO 
                 RANGELAND MANAGEMENT COALITION

    Mr. Lane. Chairman Lee, members of the Committee, thank you 
for inviting me here today to testify.
    My name is Ethan Lane. I'm the Executive Director of the 
Public Lands Council. I'm the Senior Executive Director for 
Federal Lands at the National Cattlemen's Beef Association 
where I oversee federal lands, ESA and wildlife policy. And 
currently, I'm the Chairman of the National Horse and Burro 
Rangeland Management Coalition.
    The Horse and Burro Rangeland Management Coalition consists 
of a diverse national group of livestock, sportsmen's and 
wildlife groups that collectively speak for ten million 
Americans. Those Americans seek responsible management of wild 
horses and burros on Western rangelands and solutions to 
address exploding populations in those environments.
    In modern agriculture we talk a lot about the urban-rural 
divide, specifically as it relates to average Americans 
becoming detached from the farm and unaware of where their food 
comes from or how it gets to the grocery store to their plate.
    It occurred to me, however, that while preparing this 
testimony, perhaps the best example of that urban-rural divide 
is this wild horse and burro issue. Suburban voters by and 
large are detached from their food supply and rural America, in 
general, feel an emotional attachment to these animals and 
understandably so. I represent an industry that cares for 
animals professionally, and I can say every man and woman in 
that industry also cares for these animals. We hear stories 
constantly from our members that watch these animals starving 
on the Western rangelands and their reaction is every bit as 
intense, I can assure you, as any activist sitting behind me or 
that engages in this issue on a daily basis. But just like 
their lack of understanding of where their food comes from, 
often some of these voters also lack an understanding of what 
is required to manage a rapidly expanding, non-native species 
in an often resource-scarce environment.
    Predictably, this emotional connection and lack of 
understanding has led to a Congressional response that, quite 
frankly, has been anything but helpful. The Wild Free-Roaming 
Horses and Burros Act of 1971 provided the BLM with both 
responsibilities and resources, tools and options by which to 
manage excess populations.
    Fifteen years ago, as Chairman Lee mentioned, in response 
to those well-intentioned voters, Congress saw fit to undermine 
its own Congressional intent by introducing a rider to the 
Interior Appropriations bill that removes the most effective of 
BLM's management tools, unlimited sale and euthanasia, chief 
among them. That rider has remained in every spending bill 
since, always appearing in the base bill and never requiring 
members to take a tough vote that may alienate voters on either 
side of this issue.
    The result of this approach has been nothing short of 
catastrophic. Thirty-one thousand seven hundred horses were on-
range in 2005 when the rider first appeared. Six years later, 
that number was 38,497. As the Chairman indicated earlier, that 
number today is 88,000 on-range and climbing at 20 percent a 
year with 50,000 in long-term holding. The trajectory of on-
range population is not in dispute and current management will 
guarantee an on-range population, as Dr. Thacker indicated, of 
500,000 by 2029. That predicament brings us to today.
    It's clear that the ten million Americans I speak for today 
advocate for the full use of the Wild Horses and Burros Act as 
the most effective means of reducing overpopulation. It's 
equally clear to those Americans that that is an untenable 
political solution for this body. The courage simply does not 
exist, and I mean that with all the respect in the world. That 
is a tough vote for this body to take. Therefore, we are at a 
point where we have to find new solutions to this problem.
    As such, we're here today asking Congress to do something 
to help us curb this problem. The time to act is now and the 
proposal that was submitted with my testimony, I believe with 
others as well, is one possible path back to sustainability. It 
relies on four key tenants--three, excuse me.
    The first of which is gathering sufficient numbers to curb 
this population. We will see 18,000 new horses on-range this 
year. BLM's upward capacity to manage to gather horses in a 
single year is probably about in line with that, as we 
understand it. That means next year's 20,000 horses will 
outstrip their ability to stay up with current population.
    We must also administer population growth suppressant to 
every horse that's gathered in one way or another. Last year 
they gathered 11,000 horses. They treated 700. That is not 
going to address this problem.
    And finally, they must identify long-term holding solutions 
that are sustainable and effective and cost-effective enough to 
allow those horses to remain if we are not going to use those 
other methods long enough to curb this growth on-range and get 
the population back down to a sustainable level.
    I thank the Committee and look forward to any questions 
they may have.
    [The prepared statement of Mr. Lane follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you, Mr. Lane.
    Ms. Perry.

  STATEMENT OF NANCY PERRY, SENIOR VICE PRESIDENT, GOVERNMENT 
 RELATIONS, AMERICAN SOCIETY FOR THE PREVENTION OF CRUELTY TO 
                            ANIMALS

    Ms. Perry. Good afternoon, Chairman Lee, Senator Cortez 
Masto and all the members of the Subcommittee. My name is Nancy 
Perry, and I'm Senior Vice President of Government Relations 
for the American Society for the Prevention of Cruelty to 
Animals. Thank you for inviting me today to testify on the fate 
of these precious herds.
    Founded in 1866, the ASPCA was the first humane 
organization established in the Americas. We have always been 
committed to equine welfare. In our early years our focus was 
on improving medical care, and we actually invented the first 
equine operating table and ambulance. Nowadays, we work to 
improve the welfare of horses through rehoming and safety nets 
and legal protections.
    Our efforts to protect wild horses were initially focused 
on documenting and pressing for changes in the field during 
roundups and in corrals. We were greatly distressed by problems 
we saw with roundups, but that work was simply not getting to 
the root of the problem due to BLM's emphasis on removals 
rather than on on-range management. In order to truly protect 
horses, we need this program to shift away from a reactive 
approach to a proactive one. A preventative strategy using 
existing fertility control methods would enable the BLM to 
phaseout the costly and harmful cycle of large-scale roundups 
and removals that has led to imbalance and an unsustainable 
situation.
    Mr. Chairman, the status quo is broken. It is putting our 
horses and burros in jeopardy, and it's costly for taxpayers.
    For decades, the scientific community has been urging the 
BLM to employ currently available and highly effective 
fertility control tools. Our work with the ecologists and 
economists reviewing population dynamics confirm that these 
tools already offer a real solution, one that will bring relief 
for horses and taxpayers alike. To our surprise, many who have 
long been opponents on this issue were willing to set aside 
their advocacy for lethal methods and endorse the proposal we 
have come up with.
    We are pressing for a paradigm shift in management using 
four basic components. Widespread implementation of fertility 
control combined with simultaneous, short-term targeted 
removals supported by public-private partnerships that will 
create lower cost lifetime pastures for animals off the range, 
further augmented by strategies to increase safe adoptions. If 
done properly, starting in year four, the removal numbers can 
steadily decrease and by the end of year five, no more horses 
would go into long-term holding because the number of removals 
would come into equilibrium with the number of adoptions. By 
the end of year five, also, costs start falling. This can all 
be done without killing horses and burros to reduce population 
and without selling any horses or burros to slaughter.
    For the humane community, that is essential because it is 
our responsibility, collectively, to manage these herds and it 
would not be right to force them to pay the price of our 
failure with their lives. It would also spark the greatest 
crisis in public confidence in the BLM and a true political 
meltdown.
    Our proposal also requires the agency and its contractors 
to be held accountable to its own comprehensive animal welfare 
program which covers gathers, transport and handling on and off 
the range.
    The science supporting the use of fertility control is 
clear and it has been for some time. Starting in 1990, the GAO 
began urging the BLM to implement fertility control as less 
expensive than removals. BLM proclaimed fertility control 
effective in its 1992-95 report. Fish and Wildlife Service 
affirmed its efficacy in the 1998 final rule. BLM repeated its 
confidence in this tool in a 2003 report to Congress. A 2006 
U.S. House of Representatives report strongly urged BLM to move 
forward with fertility control citing a U.S. Geological Survey 
study showing a $7.7 million savings. BLM's 2008 report to 
Congress confirms the effective use of fertility control and 
cites the National Park Service successes. A 2009 BLM 
instructional memorandum proclaims the tool effective and a 
cost saver. BLM's own EA in 2011 on the McCullough Peaks herd 
states the liquid PZP is 95 percent effective.
    The tools exist now to make this program work, and we hope 
the BLM will take full advantage of this rare opportunity of a 
united community of disparate interests and lean into this 
effort with all of its might.
    We stand ready to help and we hope that Congress will 
invest in this solution rather than the antiquated and 
expensive status quo. This strategy will enable our free 
roaming herds to live into the future in a sustainable way on 
the range where they belong.
    Thank you for this opportunity to share our thoughts in 
this truly pivotal moment for our wild mustangs and burros.
    Thank you.
    [The prepared statement of Ms. Perry follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you.
    Dr. Goicoechea.

STATEMENT OF HON. JULIAN J. (J.J.) GOICOECHEA, CHAIRMAN, EUREKA 
             COUNTY (NEVADA) BOARD OF COMMISSIONERS

    Dr. Goicoechea. Thank you, Chairman Lee, members of the 
Committee.
    My name is Dr. J.J. Goicoechea. I'm a fourth-generation 
cattle rancher from Eureka, Nevada. I'm also a licensed 
veterinarian and the current County Commission Chairman of the 
Board. I'm in my second term as a County Commissioner.
    I was in private practice for 17 years before being named a 
Nevada State Veterinarian in February 2016. My comments today 
are going to reflect my views and those of Eureka County.
    The issues surrounding the management of wild horses and 
burros in the West are not new. We've had these conversations. 
Since the passage of the Wild and Free-Roaming Horses and 
Burros Act of 1971, there's been a lot of concern regarding how 
the animals and the natural resources they rely on are being 
managed. Eureka County understands and recognizes these 
concerns, and we express our support for recent recommendations 
to better manage wild horses.
    The BLM and Congress have lacked the fortitude to accept 
and work toward implementation of difficult but necessary 
recommendations. While Eureka County has policies supporting 
the use of all tools authorized under the Wild and Free-Roaming 
Horses and Burros Act of 1971 as amended, that includes the 
sale and humane euthanasia of excess horses that are 
unadoptable. We have compromised and we have agreed to the non-
lethal management approaches set forth in a recent proposal 
entitled, ``The Path Forward for the Management of BLM's Wild 
Horses and Burros.''
    We've all heard the numbers from March 2019--88,000 horses 
on the range in the West. Let me say that Nevada has right at 
47,500 horses, 47,500, that's nearly double what AML is in all 
of the West. We are ground zero. Nevada's horse population has 
reached a level that must be addressed now to avoid exponential 
growth in the coming years and that eventual starvation, as Dr. 
Thacker alluded to.
    An example of some of the challenges we have in Nevada are 
Nevada's Triple B HMA. It is over 1.2 million acres in size and 
the current population this spring was 1,500 horses. Keep in 
mind there was a gather conducted there last summer to keep 
horses from starving to death and there is another gather 
currently occurring as we speak in that same area. The Pancake 
HMA, 850,000 acres. Those two alone are over two million acres 
and they are adjacent to each other. The Pancake HMA had an 
emergency gather done in August 2018 due to horses, again, 
dying and resource damage. And this spring, that HMA was 508 
percent of AML. That's after a gather being done last year.
    The Fish Creek HMA, right outside Eureka, is a prime 
example of an HMA that doesn't even fit the definition of a 
natural balance. This HMA has never been at AML since it was 
established. From 1994 to 2002 with the exception of one year, 
there was no livestock grazing at all in that HMA. And yet, 
utilization levels were moderate to severe in the Antelope 
Valley portion of that allotment. It is at 358 percent of AML 
today.
    I mentioned Fish Creek for this reason. In 1997 there was 
an EA to use PZP in the Fish Creek HMA to bring that population 
within AML in 19 years. It's 22 years later. We are at 358 
percent. We must not continue to do the same thing like we have 
in the past. The hit and miss application of fertility control 
is not working.
    In our larger HMAs we need a different approach and this 
may include the use of permanent surgical sterilization or 
other long-acting methods such as IUDs, intrauterine devices, 
currently being tested in domestic horses. The use of surgical 
sterilization will require additional handling of animals and 
require a longer stay in holding corrals but this is, again, 
cheaper than repeated roundups and re-administration of a 
product or, God forbid, lack of funding and the products are 
not administered.
    Advances in surgical techniques and approved methods of 
analgesia continue to allow for more rapid recoveries and less 
post-operative complications on horses undergoing surgical 
procedures.
    I applaud the BLM for conducting studies to prove the 
safety and efficacy of surgical techniques. I would never 
condone unsafe or inappropriate techniques or drugs be used, 
but as a scientific professional, I would also not be so 
foolish as to not adopt more efficient tools, ones provided 
safe and effective.
    I tell you these things today not as a lobbyist or a 
government employer or an activist. Plain and simple, I'm a 
ranch kid that found his way to vet school, and I spent the 
rest of my life applying what I learned to care for animals. 
I'm tired of seeing horses die, I'm tired of seeing horses 
suffer, and I'm tired of watching the rangelands I love and 
work so hard to protect be degraded. I'm tired of the status 
quo as is Ms. Perry. We can no longer turn a blind eye. We need 
Congress' action now.
    I thank you.
    [The prepared statement of Dr. Goicoechea follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Lee. Thank you very much.
    Thanks to all of you for your statements. We will now open 
up the process for questions. We will have alternating time 
slots between Republicans and Democrats.
    I want to start by asking a couple of questions jointly of 
Dr. Thacker and Mr. Tryon. Feel free to jump in at either time, 
either of you can respond to this.
    As far as I have been able to tell, the last time a hearing 
was conducted here on this issue was 2002. Can either of you 
tell me roughly how large the wild horse and burro population 
was on federal lands in 2002?
    Mr. Tryon. I don't have that statistic immediately at my--
but it looks like Dr. Thacker may.
    Senator Lee. Okay.
    Dr. Thacker. I'm trying.
    Senator Lee. That's fantastic. It is not essential if you 
don't have it. My understanding is that it has increased 
substantially since then----
    Mr. Tryon. Yes, sir.
    Senator Lee. ----so let me know if you come across that.
    Under current management practices, if nothing changes, how 
many horses do you think there will be two years from now or 
five years from now or ten years from now? What does the rate 
of increase look like?
    Mr. Tryon. So I'll take an initial answer at that, sir.
    We expect the recruitment rate for the 88,000 horses that 
have been mentioned to be roughly 16,000 animals that will, 
over winter--that's how many will be born and will survive 
through the winter--which could increase to as many as 20,000 
the following year if there are no other interventions, if we 
do not scale up contraceptive use or scale up removals of 
animals. And I believe you quoted a figure of as many as 
500,000 animals if the program goes on in its current glide 
path.
    Senator Lee. And what time period would that occur or be at 
the----
    Dr. Thacker. So by 2029, 2030, if nothing, no more horses 
are removed, given the apparent growth rate, we'll be at about 
500,000 horses, give or take.
    Senator Lee. Can you explain to us why wild horse 
populations grow at such exponential rates?
    Dr. Thacker. As I mentioned in my testimony, part of the 
problem is they are a non-native species and there are no 
natural predators. So like with other wildlife species, you 
have predators that help control those populations or we 
actually manage those as humans. Wild horses don't have any 
natural predators. So basically, by the time that a foal 
reaches a year old, the chance of it living to 15 plus years is 
quite high. So there's no other natural, large ungulates or 
herbivores that live in our Western landscapes that experience 
that kind of growth or survival.
    Senator Lee. Right.
    In the case of cattle, they are typically being managed by 
someone who owns them. In the case of something else, they 
might have a natural predator.
    Dr. Thacker. Right, well, cattle are not allowed to grow 
exponentially because they're managed on public lands, 
specifically, they're managed very tightly by the BLM and 
Forest Service, again, prescripting time, timing, intensity and 
the numbers. And so those animals are usually managed quite 
tightly.
    Senator Lee. Mr. Tryon, is there any scenario in which 
fertility control alone brings an overpopulated herd to AML?
    Mr. Tryon. I think there is a scenario. It's going to 
require a significant investment.
    So fertility control from the BLM's perspective is all-of-
the-above. We will use GonaCon and PZP in two formulations. PZP 
has been mentioned by a couple of the witnesses already.
    We certainly would be interested in looking at the 
effectiveness of IUDs as a research project, and BLM is very 
much open to the idea of spay and neuter or sterilization, 
particularly for the mares where it's going to be more 
effective.
    This is not a technique that the $80 million budget that 
we're operating at can get us to an appropriate management 
level without the additional gather and removals that are going 
to have to accompany it.
    Senator Lee. Why not go in that direction toward the 
sterilization then if that would be effective?
    Mr. Tryon. We are intending to do so, Mr. Chairman. In 
fact, we've been pursuing a study in Burns, Oregon, for a 
couple of years now which we intend to go forward with in the 
fall that looks at behavioral characteristics of mares that 
have been spayed once they've been reintroduced to the field 
which is one of the questions that the public has about 
sterilization.
    And certainly, we would be open to using spay and neuter 
techniques in gathers throughout the West. It is something that 
we need to gather additional data on, but we're very much open 
to it.
    Senator Lee. Are there herds in which overpopulation has 
led to starvation?
    Mr. Tryon. Yes, and I believe Dr. Thacker has said as much.
    But BLM last summer, so in 2018, had to intervene in 
roughly half of the gathers of 11,000 animals that you 
mentioned, roughly half of those were in some amount of 
distress because the Interior West was going through a 
substantial drought in 2018.
    And so, rather than haul water to water sources over months 
and sometimes into years, our direction was instead to gather 
the animals, get them down to AML and make sure that the water 
that was present there was sufficient for the appropriate 
management level.
    Senator Lee. Okay.
    Senator Cortez Masto.
    Senator Cortez Masto. Thank you. I appreciate all of you 
being here, thank you so much.
    Coming from Nevada, this is an issue that we need to do 
something about. Time is of the essence. No more can we delay. 
So I appreciate the hearing today.
    Ms. Perry, let me start with you.
    I recently had the opportunity to meet with advocates in 
Northern Nevada to learn about their work darting wild horses 
with PZP and it was in the Fish Springs area, right, at the 
Pine Nut Herd Management Area.
    I know the compromise plan refers to using a variety of 
fertility control methods. We heard from the BLM just now that 
they think that is a possibility.
    But I also know that you have also identified that each 
management area or each herd management area is different, 
right, not one-size-fits-all.
    So can you talk a little bit about not only the efficacy of 
the PZP but other methods that have shown promise to 
controlling the population?
    Ms. Perry. Absolutely, thank you so much, Senator.
    There really is quite a history around PZP and the new 
generation of PZP-22 which is named after the number of months 
it typically lasts for and that's just a median. So it actually 
can last for somewhere between two and five years if there's a 
booster involved. So it's quite efficacious.
    The stacks of research on that have really impressed us and 
we really believe that if implemented robustly, it would be 
adequate to bring us the kind of results we want, we all 
collectively want, to see.
    But unfortunately, the spending has not happened around 
that. For the last several years the agency has devoted less 
than one percent of its overall budget to situations like Fish 
Springs and Cedar Mountain and some of the other HMAs where 
there have been concerted efforts to implement 
immunocontraception.
    There are other techniques, GonaCon. There's a SpayVac 
vaccine, essentially, that still needs more field testing, but 
is showing incredible results. There really is a lot of 
research going on right now that reaches into reversible 
techniques, some more permanent techniques. It's all, it's 
really quite impressive the amount of energy that's going into 
looking into this.
    But right now, we feel that the tools actually already 
exist. And one of the concerns we have is if we're constantly 
striving and reaching for some new tool when we have something 
effective in our hands, it feels like a very inefficient 
program for us to not employ the tools that we already have. 
Those were created using taxpayer funds.
    Senator Cortez Masto. Right.
    Ms. Perry. And we're not really utilizing the tools that 
are in our hands right now.
    Senator Cortez Masto. So, thank you.
    And I guess, let me ask, Mr. Tryon, because you have 
mentioned it as well. And I heard Ms. Perry just say this, that 
less than one percent of your budget goes to fertility control. 
Why?
    Mr. Tryon. So, let's use last year as an example, Senator.
    In 2018, as has been mentioned, we gathered and removed 
about 11,000 animals. That was roughly 5,000 animals less than 
the recruitment rate. So as we were managing the program it did 
not make a lot of management sense to simply turn those animals 
back on to the range when the places we were taking them from 
were two, three or four times above the appropriate management 
level to start.
    So it has generally been the BLM's approach to say, as we 
get closer to the AML level, that's when extensive use of 
fertility control would make more sense because as we gather 
and remove animals from the range, they're segregated by gender 
so they have no possibility after the foal that the mare may be 
carrying is born, they have no possibility of producing more 
horses and burros, but that's----
    Senator Cortez Masto. But at the rate you are going you are 
never going to get to that AML level. So it just doesn't make 
sense to me. Why wouldn't you change your tactics if you know 
what you are doing is, quite frankly, swimming upstream? You 
are just never going to reach that AML level based on what you 
are doing and hearing.
    What I have just heard now is by 2020 we are going to have 
100,000 horses out there. Why wouldn't we change tactics and 
look at fertility control and spending more money there or 
asking us here in Congress to appropriate more money, if that 
is what there is a long-term plan to address this?
    Mr. Tryon. Well, and I'm glad you mentioned that, Senator.
    Of course, we spend a lot of time meeting with some of 
these coalition representatives and going over the details of 
their report. Generally, the BLM is supportive of additional 
fertility control and it is something that within the 
constraints of our appropriation, we would like to use 
additional fertility control and we would like to continue to 
increase the amount of removals.
    Senator Cortez Masto. So let me ask, and I am running short 
on time, but Dr. Goicoechea, it is great to see you, somebody I 
have talked to on a regular basis and many of our ranchers and 
stakeholders in Nevada.
    Based on your experience and knowing that Nevada has most 
of the wild horses on our land, your thoughts on whether and 
how BLM should be doing more when it comes to control through 
fertilization, excuse me, through fertility control methods and 
your thoughts, particularly, as a veterinarian.
    Dr. Goicoechea. Thank you, Senator.
    And Ms. Perry is correct, PZP-22 does show great promise in 
those areas where it can be re-administered.
    The reason I talked about the acreage in these HMAs is to 
paint a picture for you guys of just exactly how large that is. 
It must be re-administered. I encourage you to please reach out 
to contractors who contract gather for the BLM and they will 
tell you the same, we're having difficulty recapturing horses. 
The more times you put a horse in the corral and release that 
horse, the more difficult they get to capture. We have a lot of 
pinyon-juniper woodlands. We have some high elevation peaks. We 
can't get those same horses back. If we miss her, the next time 
she will have a viable foal and she is in much better health.
    We must find something that works better for areas of 
Nevada. Nevada is a unique beast, as you well know, and this 
will not, the use of PZP every three years, I'm sorry, it won't 
work in our large HMAs. We must have something more long-term.
    Senator Cortez Masto. Thank you. I appreciate that.
    I notice my time is up. Thank you.
    Senator Lee. We are going to turn to Senator Barrasso next. 
He will have five minutes of questioning. Then we will be 
recessing because they have called votes on the Floor, and then 
we will reconvene after we return from votes.
    Senator Barrasso.
    Senator Barrasso. Well, thank you, Mr. Chair.
    First, I want to congratulate and tell you how much I 
appreciate you and the Committee taking up the animal welfare 
and environmental crisis that is the current state of the 
Bureau of Land Management's Wild Horse and Burro Program.
    I am going to, if it is okay with you, just submit my 
statement for the record and go right to questions.
    Senator Lee. Without objection.
    [Senator Barrasso's statement follows:]
    [GRAPHIC] [TIFF OMITTED] T7811.047
    
    [GRAPHIC] [TIFF OMITTED] T7811.048
    
    Senator Barrasso. Mr. Tryon, although this issue is often 
litigated in the court of public opinion, the wild horse and 
burro problem is no stranger to the court of law. One 
particular case in Wyoming was brought by the Rock Springs 
Grazing Association to require the BLM to gather horses that 
had left the herd management area and encroached on association 
land. Are you familiar with this? I am sure you are familiar 
with a 2013 consent decree, which came as a result of the case.
    If implemented, would the approach suggested by the 
coalition's proposal change anything about the way the BLM 
carries out that consent decree?
    Mr. Tryon. Senator, thank you for the question.
    I'm generally familiar with the Rock Springs consent 
decree, and BLM has full intent to continue to comply with it.
    I would say, generally, to be in alignment with the 
coalition proposal means greater use of fertility control. In 
the case of Rock Springs, it would be no different. That could 
be one of the areas that we target through a pilot. It's a 
little unusual because of the checkerboard private ownership, 
but generally, BLM would like to use additional fertility 
control and also to increase its pace of gather and removals 
both, including in Rock Springs.
    Senator Barrasso. A couple of quick questions to compare 
the proposal to the BLM's current approach.
    The proposal suggests the agency should prioritize removals 
based on heightened concerns due to rangeland degradation and 
the direct political conflict with the BLM's multiple use 
mandate. Is that different than how the agency prioritizes 
gathers now?
    Mr. Tryon. I wouldn't say it is. Our priorities generally 
involve health and safety of the animals, health and safety of 
humans and target species such as sage grouse and rangeland 
degradation.
    Senator Barrasso. The proposal also suggests that range 
restoration treatment should be done immediately following 
gathers. So, based on the significant degradation in some of 
these areas, would treatments be effective if horses were still 
present or would horses need to be removed in terms to allow 
for recovery?
    Mr. Tryon. It's a little difficult to give a blanket 
statement about that. I would say in the event of a fire, we 
absolutely will get all of the horses off of there to ensure 
the revegetation takes and that could be as long as a couple of 
years.
    Senator Barrasso. Ms. Perry, I appreciate the ASPCA now 
recognizing the need to gather horses on drastically 
overstocked Herd Management Areas. Gathers seem to attract 
litigation as soon as they are announced. Some of the suits 
have been brought even by your own organization.
    So as I welcome the engagement and the support for this 
proposal from the ASPCA, The Humane Society and others, I know 
that any action the BLM takes is likely to be met with 
litigation. Will the ASPCA stand with the BLM and other 
supporters of this proposal when groups tend to sue to prevent 
necessary management?
    Ms. Perry. Thank you, Senator.
    I am unaware of any litigation that we have engaged in as a 
group, but what you say is true that this program in general 
has drawn a great deal of ire and concern and skepticism from 
many, many different categories of animal welfare and rights 
groups. And we expect that that will continue to be the case.
    Our role is not to continue to engage in pointing fingers, 
because we think that has delayed solutions that are needed for 
these animals that we're working so hard to protect. We believe 
that if this particular proposal or something very similar to 
it were implemented, we would be able to be supportive if it's 
implemented faithfully because we believe in it and we believe 
it will yield positive results.
    There will still be litigation, there will still be 
detractors and we appreciate and understand that there's a 
certain amount of passion out there and we never eliminate 
that.
    But the ASPCA certainly will stand for moving forward with 
a proposal that we believe is non-lethal and protective and 
long-term and will bring lasting change.
    Part of the problem has been that we have to worry about 
every political wind shift and what may or may not happen for 
these horses. We need a sustained approach so that these horses 
receive the kind of protection they need over the long haul and 
they exist into the future.
    Senator Barrasso. Mr. Lane, I can imagine chairing this 
diverse Coalition is challenging at times. Understandably, some 
of the provisions in the proposal are a bit vague. So, just a 
couple quick questions.
    The proposal suggests the BLM should more aggressively seek 
lower cost, off-range, holding facilities as an alternative to 
BLM corrals. There are not many facilities like that that exist 
now. Where do you think these facilities are going to emerge 
and, if they exist, why haven't they come forward already?
    Mr. Lane. You know, I think that's a fair question. And 
part of the conversation that took shape, I think, during this 
process was an analysis of where you put these horses once you 
remove them from rangelands. And one of the concerns that we 
had coming into that process is that we don't remove them and 
place them into facilities that are adjacent to problematic 
areas, partially because of litigation that you referred to 
earlier. There's not an issue we deal with in the West in land 
management that doesn't come down to litigation, unfortunately, 
at some point. So what we tried to prioritize in the proposal 
was locating those horses into areas where there are resources 
to support them.
    Obviously, one of the things we'd be concerned with would 
be putting them into areas that are already resource deprived, 
where you're starting to impact the hay market, where you're 
starting to impact other ranchers that are in the area.
    So that RFP process needs to be robust enough that 
producers, whether it be ranchers or others with sizable land 
areas and forage production, able to support those horses that 
want to be in that business, can be attracted to that program 
as an option either to hedge in the rest of their operation or 
simply because they have the resources and the will to do it.
    Senator Barrasso. The final question for you is one of the 
biggest struggles for this issue is that all sides have been 
tried in the court of public opinion--biology, ecology, law. 
How does the Coalition work to educate the public so that they 
engage in a way that is actually helpful to the horses, helpful 
to the BLM, helpful to the effort?
    Mr. Lane. So, and I want to just make a quick distinction. 
I'm representing a coalition and then we have this proposal 
group and, just to distinguish between the two, I think in the 
proposal group we do have a lot of disparate opinions as Nancy 
alluded to earlier and it is really the responsibility of 
various members of this proposal group to speak to their own 
constituencies. I mean, what I say as a lobbyist for the cattle 
industry and as the Chairman of this Coalition carries no 
weight with members of Nancy's universe and vice versa.
    So, you know, I think our responsibility is to craft 
something that's realistic and saleable to you here in Congress 
and to the BLM and then to go communicate that to our 
memberships. I mean, all of us sitting at this table that 
engaged in this did so with policy books sitting in front of us 
and guidance from our members, and we then need to go back and 
communicate what we've done and do it in a way that helps them 
to understand the political reality and what's possible and 
achievable in this environment.
    Senator Barrasso. Thank you, Mr. Chairman, for your 
continued leadership on this.
    Senator Lee. Thank you, Senator Barrasso.
    We stand adjourned. We will reconvene shortly after the 
votes occur on the Floor.
    [RECESS]
    Senator Lee. We will now reconvene.
    Senator McSally.
    Senator McSally. Thank you, Mr. Chairman.
    Thanks to all of you for your testimony on this really 
important topic.
    Most of the hearing so far has been focused on wild horses, 
but I want to remind everybody that in Arizona we have a burro 
problem as well, more burros than in any other state. There are 
approximately 6,900 burros, mainly in Mohave County and in Yuma 
County, with a maximum carrying capacity, determined by BLM, of 
just 1,600.
    The extreme population has crowded out native wildlife. It 
has been damaging fragile ecosystems, impacting ranching 
operations and they wander into populated areas causing a lot 
of safety issues.
    In 2015, the Arizona Department of Transportation responded 
to a record number of calls about burros wandering on the 
highways with 44 animals being killed across the state. And in 
2018, 21 burros were killed by car collisions just in Bullhead 
City alone.
    I did a 15 county tour in my first 90 days in office, and 
when I went out to Mohave County, this was a top issue that 
local community brought to my attention.
    So far, thank God, drivers have only experienced minor 
injuries in these collisions but they could also lead to human 
fatalities as well if left unaddressed.
    So I want to talk a little bit about the burro population.
    Mr. Tryon, I understand BLM is looking at expanding the use 
of fertility drugs with the burros, the wild burros, with the 
plan that the Agency expects to release in August. Is there a 
cost difference between administering the contraceptives to 
burros versus horses and can you explain why that may be the 
case?
    Mr. Tryon. Senator McSally, thanks for the opportunity to 
talk about burros and maybe make a small plug for the BLM's 
operations in your home state.
    As far as fertility control is concerned, there is not a 
substantial cost difference because the majority of the cost of 
administering contraceptives is actually running a gather 
itself. Now, my qualifier on that is burros in Arizona are 
largely gathered through what we call bait-trap methods which 
is really putting out water which is attractive to burros and 
the operation can take several weeks, but it is both low cost 
and highly effective.
    And so, a small shout out to our BLM operations there. We 
adopt 300, 400, 500 animals a year out of Arizona and they go 
to various states, including Utah and Wyoming and other places, 
because they're quite adoptable and people find them 
attractive.
    Generally speaking, what we've been talking about with 
fertility control is BLM is welcome to using more of it, 
including with burro populations and that would mean that 
burros are not just gathered and removed, put up for adoption. 
Some would be gathered and reintroduced.
    Senator McSally. Okay, great.
    Just to be clear--you are saying there is no real cost 
difference between burro and horse fertility projects but, I 
mean, there is. It is easier to gather up the burros, right?
    Mr. Tryon. Right. Right.
    Senator McSally. And for low cost?
    Mr. Tryon. So the gather itself would be cheaper if you're 
talking about bait trap.
    Senator McSally. Okay.
    Mr. Tryon. And so, that would be a cost difference.
    Senator McSally. Okay, but that is all part of the pot, 
right?
    Mr. Tryon. It's inherent to the way the gather is run. And 
we do bait trap operations in Nevada and other states as well.
    Senator McSally. Okay, thanks.
    So, as you guys, as BLM is preparing a report on this 
issue, I think, again, it is due in August, could you place an 
appropriate emphasis on the unique and separate operations and 
needs related to the burro management than the horse management 
so we are not just lumping them all in together? Can I get that 
commitment from you?
    Mr. Tryon. I will commit to doing that.
    Senator McSally. Okay, thank you, I appreciate it.
    Are there other experts on the panel here today who want to 
share their perspectives on best practices related to burro 
management? I am open to hearing your ideas.
    Ms. Perry. Thank you so much, Senator.
    I just wanted to echo what Mr. Tryon said that we find, 
whether domestic or wild, burros are one of those species that 
enjoys incredible popularity and there are sanctuaries and 
rescues that can move thousands of them out to good homes. So 
we're pretty impressed with that. And we think there's an 
opportunity for expansion of that work that would really 
address what you're raising.
    Senator McSally. Great, thanks.
    I know there is a pilot project, I mean, HSUS----
    Ms. Perry. Yes.
    Senator McSally. ----that you are not representing but 
also----
    Ms. Perry. Yes, the Platero Project.
    Senator McSally. ----industry, that is happening there, and 
that includes private donations as well to support the 
operation.
    Ms. Perry. Yes. Yes.
    Senator McSally. Is there hope in expanding that element of 
this because funding, obviously, is an issue that has been 
brought up many times today?
    Ms. Perry. There is. There are many humane groups who are 
part of this larger proposal that we support. And the Humane 
Society of the U.S., Humane Society Legislative Fund, Return to 
Freedom, are all part of that, and HSUS has been actively 
working on the ground with the Platero Project and in Oatman, 
Arizona, there are several locations where that has been on the 
ground. I believe there is interest in expansion, and it is a 
public-private opportunity.
    Senator McSally. Great, I appreciate it. Thanks to 
everybody.
    Anybody else have anything to add related to burros?
    [No response.]
    Alright, thank you, Mr. Chairman. I appreciate the 
opportunity to talk about this important issue.
    Senator Lee. Thank you, Senator McSally.
    Dr. Thacker, an estimated 30 percent of the land covered by 
the BLM Herd Management Areas contain sage grouse habitat. That 
amounts to about seven million acres. As you know, state 
governments are investing a lot of money and a lot of other 
resources to manage the rangeland for sage grouse and to 
deconflict its presence with other land users. How do the 
excess populations of horses and burros impact sage grouse and 
other wildlife species, other ungulate species, like elk, deer 
and antelope?
    Dr. Thacker. So, like I mentioned in my testimony, that 
there's, kind of, two functions or two pathways that lead to 
conflict with wildlife primarily as excess horses are removed, 
too much vegetation from the landscape, you lose vegetation 
which is often forage for those wildlife species. And so, they 
may go without food and/or cover. In the case of sage grouse, 
they need sage brush cover, grass cover, et cetera, to hide 
their nest, to hide themselves. So that's one possible 
conflict. The second is space, which I think we ignore 
oftentimes.
    And there's some work that's been done in Utah, 
specifically out on Dugway Proving Ground by Brigham Young 
University, where they looked at water and they found that 
there was a very strong correlation with horse presence and the 
lack of use by native wildlife, everything from birds to larger 
animals like pronghorn, for example. So they can compete both 
for forage, space and then also, just the overall quality of 
the habitat or the quality of vegetation.
    Senator Lee. Do you know about how much sage grouse habitat 
might have been affected or degraded by the horse 
overpopulation?
    Dr. Thacker. So in that part of the state we don't have an 
active sage grouse population. You've really got to look to the 
states of Wyoming and Nevada. They're, kind of, ground zero for 
overlap with sage grouse and wild horse herd management areas. 
Utah has a little bit of overlap, but not near as much as the 
other two states.
    Senator Lee. Once it has been degraded, how long does it 
take for habitats like these to recover?
    Dr. Thacker. That's a tough question. We're still grappling 
with that.
    It can take decades for that to recover. A lot of it 
depends on how the precipitation falls in a given year. But 
it's safe to say that it's extensive, it's expensive and it may 
well take several decades if we can recover some of that. Some 
of that habitat occurs in fragile enough ecosystems that once 
it's lost, we may struggle to get it back.
    Senator Lee. Yes.
    And back to the water sources. When you have horses near 
this, what are the kinds of impacts it has on other species and 
their behavior around the water?
    Dr. Thacker. So you're referring to the horses' behavior?
    Senator Lee. Yes, yes.
    Dr. Thacker. So, there's again some work by Dr. Steve 
Peterson which suggests that they have documented aggressive 
displays toward things like pronghorn to keep them off the 
water, bighorn sheep and elk, those have all been documented. 
So horses are certain to make their presence known.
    I think one of the most critical things that happens is 
they show a correlation between temperatures. Temperatures 
increase, daily temperatures increase and the horses spend more 
and more time on that water during the hottest part of the day 
which is the time of day that a lot of the wildlife are in need 
of that water. And so, often the wildlife are left to wait 
until the horses vacate the area before they're able to access 
that water. So it causes additional stress, physiological 
stress, to the wildlife species that are being excluded.
    Senator Lee. Mr. Tryon, what impact does that have on the 
water itself?
    Mr. Tryon. Well, it can significantly draw down the water, 
Mr. Chairman.
    So BLM is familiar, certainly anecdotally, with the fact 
that horses are drawn to water. They overcompete other 
resources, they are more mobile than most of the game species 
that Dr. Thacker was talking about and that they can 
essentially make a barrier between the water and themselves. 
I'm familiar with some of the literature on this and generally 
we're finding that horses, in particular, outcompete the other 
animals for water sources.
    Senator Lee. Mr. Goicoechea, how many of the herds are 
located on land where the only water sources available are on 
private land?
    Dr. Goicoechea. Thank you, Mr. Chairman.
    So in Nevada there are very few where the water sources are 
only located on private lands. Part of that reason is most of 
those areas--when the Act was put in those horses were claimed 
by those ranchers.
    A lot of areas do have artificial water sources and by 
that, I mean, well, that permittees own. So those are a private 
property right or pipelines that pipe water off of private 
property onto adjacent BLM land.
    Senator Lee. In that kind of circumstance what actions can 
private citizens take with regard to protecting their private 
property where they are surrounded by horses that may be 
looking for water if they have a source of water on their land?
    Dr. Goicoechea. Sure, so again, Mr. Chairman, J.J. 
Goicoechea here for the record.
    Fence out--Nevada is a fence out state. That does become a 
problem when horses are thirsty enough and resources are 
depleted enough. We are continuing to see more and more public 
land interactions or, excuse me, private land interactions with 
horses. That includes maybe domestic horses that you have on 
the inside fighting with those horses.
    When it comes to what can you actually do? A lot of times 
that ends up in court. The BLM has asked can you please provide 
horses with water that you have coming off of your private 
property? Some permittees will. Some won't. But that is a 
private property right in the State of Nevada, and it is 
guarded quite closely, as you can imagine, in that dry state.
    Senator Lee. Horse health, as you know, has become a 
controversial topic because it can vary significantly from one 
herd to another and even between seasons. With your background 
as a large mammal veterinarian, can you give a brief overview 
of, sort of, the industry standards by which horse health is 
measured?
    Dr. Goicoechea. Sure, absolutely.
    So, as you said, it's become a hot button issue.
    This year Mother Nature gave us a break. We had a record 
winter so we have a lot of forage. The horses don't look bad 
right now in Nevada. There's a lot of them.
    I will tell you in recent years, they looked terrific. I 
personally have been called upon, I don't know how many times, 
to investigate horses that were in severe shape, poor body 
condition. A lot of those did succumb to their nutritional 
status. Down in Southern Nevada, in particular, I think a lot 
of people saw the news and the video that came out of down 
there. Let me just say, Mr. Chairman, that if that was a 
private individual that had those horses, I do believe there 
probably would have been charges brought forward. And that is 
something that is very difficult for a lot of us to watch. I do 
not care for my animals that way, my clients do not care for 
their animals that way, and I beg us to find a way to allow the 
BLM to not have to care for theirs or ours in that way.
    Senator Lee. I take it from your answer then that you 
believe that the size of these herds in some instances has 
reached a level that makes it negatively affect the well-being 
of the herds.
    Dr. Goicoechea. Absolutely. Your older horses and your 
younger horses tend to be the first ones that suffer.
    Dr. Thacker talks about how these horses get aggressive on 
water. When there's not very much water, your older--your 
stronger, bigger horses are going to get that drink first. Your 
foals, your weanlings, your yearlings, and then your older 
mares are going to have it last. And if there is not water, 
they're going to continue to deteriorate in health. And that is 
what we see happening.
    Senator Lee. So how would you advise us then to discuss 
what metrics or language or concepts should we be incorporating 
into our conversations in Congress about horse health? What 
should we be thinking and talking about that we are not 
discussing?
    Dr. Goicoechea. Appropriate management level.
    Those levels are set for a reason. That is what the natural 
resource can sustain for those horses. That's why those numbers 
were established. They're not arbitrary. They're not random. 
That is the number of horses that can be sustained on that land 
and we have got to come back to that.
    When I give examples of HMAs three, four, five, 1,200 
percent over AML, we are having a negative impact on the health 
of those horses. If we get them down to AML, we'll have healthy 
horses on healthy lands. And then we can start applying 
fertility control and everything else we've talked about.
    Senator Lee. Have wild horses and burros in your state had 
an impact on public safety?
    Dr. Goicoechea. Absolutely. In fact, the gather I alluded 
to earlier with the Triple B, for example, that is occurring 
right now is, in large part, a public safety gather. We are 
seeing increased collisions with motor vehicles and wild horses 
and, in addition, we're seeing a lot of wildlife being pushed 
away from some riparian areas down into farming ground and 
ranching ground. And we're so--inadvertently, they are being 
struck by vehicles as well because the horses are kind of 
occupying our riparian areas in the foothills.
    Senator Lee. Do I understand correctly that in some areas 
we are talking about a level of 1,000 percent above AML?
    Dr. Goicoechea. Yes, sir.
    Senator Lee. What kinds of conflicts does this cause with 
management and other ways?
    Dr. Goicoechea. In most of the areas where horses are that 
over AML, the conflicts are predominantly with wildlife, those 
that are remaining at this point, sportsmen and recreationist, 
the public land grazers are often gone at the point that these 
horses get to that high of AML. They can no longer maintain 
their ranching operation.
    Senator Lee. Okay. Thank you.
    Mr. Hoeven.
    Senator Hoeven. Thanks, Mr. Chairman.
    How do you pronounce your last name? I know I should be 
able to pick that up real quick, but can you help me with it?
    Dr. Goicoechea. Very carefully, Goicoechea.
    Senator Hoeven. Goicoechea?
    Dr. Goicoechea. Yes, sir.
    Senator Hoeven. So how do you get to that AML number that 
is recommended? What would be your recommendations? How do you 
get there and maintain that number?
    Dr. Goicoechea. So the proposal that most of us sitting at 
this table have come forward with will get us there. It will 
take five, six years to get those numbers down there, but it is 
robust, targeted grazing to remove animals down to closer, to 
appropriate management level now.
    It is the use of fertility control, whatever that might be. 
In some areas, it's going to be PZP, in some it's going to be 
GonaCon, in some it might be IUDs, spay, as those techniques 
become available.
    We've got to find a place to put horses for the next 
decade, decade and a half, off-range. If we remove older horses 
and we put them off-range, we need some more off-range holding 
to hold those horses through their life.
    And we have to increase adoptions. We can increase those 
adoptions or put more into good homes once we get AML down. If 
we're adopting out 4,000 or 5,000 horses a year, we can manage, 
partly, what we're bringing off the range.
    But until we get those large gathers done, that might be 
15--20,000 a year for a couple of years, we're not going to get 
there with the other tools without doing gathers.
    Senator Hoeven. If you can train them, as far as adopting 
out horses, the training is such, nowadays, you know, there was 
a time when everybody knew how to work with horses. That is no 
longer the case. So much now with the horses is the training. 
To get them adopted, you almost have to get them trained to 
broaden who is going to be willing to take those horses. People 
don't know how to train them.
    Dr. Goicoechea. So, you're exactly right, Senator. And 
there are programs in place now where more of that training is 
happening. In Nevada, for example, our correctional department 
does take a lot of horses in from the BLM and those that are 
incarcerated do train those horses, and then those horses are 
sold. And they bring good money. They do.
    Senator Hoeven. Absolutely.
    Dr. Goicoechea. And I know that lawmakers in the state 
continue to say if you will bring us more horses, we will build 
more capacity in and we will work with you to place more of 
these horses into good homes.
    Senator Hoeven. Well, you hit the nail on the head. I mean, 
that is a big part of the value. You get a horse that is well-
trained and, like you said, that brings a lot more money, 
obviously.
    Which leads me to think that we should give some thought to 
how we get more trained. What should we do to help accomplish 
that because I am convinced that is the key?
    Ms. Perry. Senator, that's such a good question and a good 
point that you're raising.
    If I could answer, I think the Mustang Heritage Foundation, 
which works hand in glove with the Bureau of Land Management, 
has a great deal of capacity to do more. They can take more 
horses. They can do more training. They have an incredibly 
unique storefront approach where they bring horses to local 
communities where those horses will be desirable after they've 
received that training.
    So there's a tool available to us. And this proposal 
contemplates that and really increases and augments 
opportunities for training and safe re-homing of those horses.
    Senator Hoeven. Do you need legislation to put your 
proposal into effect or could that be done?
    Ms. Perry. No, we do not. The BLM has the authority it 
needs to move forward with this proposal.
    Senator Hoeven. Well, there you go, Deputy Director.
    [Laughter.]
    Mr. Tryon. Senator, if I could elaborate?
    Senator Hoeven. Sounds like they have given you a turnkey 
solution.
    Mr. Tryon. You bet.
    Senator Hoeven. Seriously though, talk about the challenges 
to putting something like that in place, number one. Number 
two, actually my number one concern is have you been out there 
talking to the grazers? Are you working with the grazers and 
are you making sure that you are working with them to make sure 
that the multiple use is fulfilled as part of managing the wild 
horse herds? And then two, talk about implementing their 
proposal.
    Mr. Tryon. So, absolutely.
    Range management and livestock grazing is a huge part of 
BLM's history. We quite frequently meet with individual 
cattlemen and also the associations, and often the conversation 
turns to wild horse and burro management.
    And, of course, I am aware of instances in BLM's management 
where we have voluntary resting of livestock grazing that's 
taking place at the request of the permittee. That's not 
widespread, but there are instances of that.
    I did though, I wanted to go back to your questions about 
training because we have had, for years now, very active 
programs with the number of prisons and that's in California 
and Nevada, and Hutchison, Kansas, and Colorado, Florence, 
Arizona, all of these places. We get a lot of benefit because 
labor is cheap from the inmates. The inmates get a lot of 
benefit out of it in terms of the human-animal interactions, 
and we get some very adoptable animals out of that program.
    But this year, Senator, first time ever, we have 
implemented a financial incentive for untrained horses and it 
has shown a lot of promise. We're now paying $1,000 to adopters 
in two installments--two $500 installments. And it is looking 
very positive for increasing not just the trained animals that 
we're adopting but also the untrained ones.
    Senator Hoeven. Is there pushback from the horse industry 
or is that something they recognize working with you makes 
sense?
    Mr. Tryon. Not at all. We haven't had that.
    I also second Ms. Perry's comments about the Mustang 
Heritage Foundation. It's been an excellent working 
relationship. They're based out of Georgetown, Texas. They do a 
lot of great work together with the BLM, and they adopt a lot 
of our animals for us.
    Senator Hoeven. I have seen the prison thing. I think that 
is just phenomenal.
    And I really like the idea of this incentive for the 
trainers. I think you create value there. I mean, I think there 
is a way to generate revenue from the standpoint you have a 
horse now that is valuable if it is well-trained.
    Mr. Tryon. We think we're creating markets. It's still a 
little bit new to declare victory.
    Senator Hoeven. Right.
    Mr. Tryon. But it's been positive so far.
    Senator Hoeven. Well, it greatly expands the possible pool 
of adopters, because they can take a horse that is trained 
where they can't do much with one that is not trained. So I 
think it is a great idea.
    The last question I have is, so you are implementing--maybe 
we are just too focused on training. The overall proposal, he 
mentioned a number of things. Overall, are you able to 
implement that proposal or are there some things that would 
hold you back?
    Mr. Tryon. We absolutely have the legal authority to do it, 
and we have been active in the training area for years now.
    Senator Hoeven. But beyond the training. He had about four 
or five steps included, fertility control, a number of things. 
Are you able, the holistic plan they put forward, is that 
something you are doing or are there issues to doing that?
    Mr. Tryon. So, generally speaking, the coalition proposal, 
that several of the folks that are represented here, we have 
the authority to do it. It's a level of intensity question.
    So can we increase the use of fertility control and also 
increase gather and removal? That's, sort of, the sweet spot. 
And with the $80 million appropriation that we're operating 
under currently, we would have to scale back some of the other 
gathers in order to have the intensity of operations that would 
be necessary to have that widespread fertility control. So yes, 
we can do it. It's a matter of scale.
    Senator Hoeven. Which is a resource issue or----
    Mr. Tryon. Yes, sir.
    Senator Hoeven. ----other issue? Is it other or is it just 
a resource issue?
    Mr. Tryon. It's a resource issue.
    Senator Hoeven. So you are not getting pushback?
    I mean, obviously, in terms of horse management, I know 
there are a lot of different people, a lot of different ideas 
on how it ought to be done. And without going into all of that, 
the main issue, it is a resource issue, not a pushback issue.
    Mr. Tryon. Right.
    And in terms of the basic premise of everybody gathered 
here that additional fertility control and returning those 
animals to the range, we are not getting pushback on that.
    Senator Hoeven. Okay.
    Then from the cattlemen's standpoint, just your sense of 
how this is going and priorities and what the BLM needs to be 
doing.
    Mr. Lane. Well, what I think Mr. Tryon is just, sort of, 
not able to probably answer as robustly as maybe some of us on 
the panel, this is a financial issue. The program is 
constrained at its current budget. They're spending $50 million 
of their $80-some odd million on the off-range holding of those 
50,000 horses that have been gathered. That leaves them very 
few resources to do more gathers, administer fertility control 
and really aggressively triage that population.
    I think things like, you know, trained horse programs are 
fantastic tools when you have a sustainable population, but I 
think this proposal contemplates the idea that we really have 
two different items that we're looking at. We're triaging a 
critically overpopulated range.
    Senator Hoeven. Right.
    Mr. Lane. And then one of those long-term, sustainable 
solutions and that big hit of funding that's needed now, and 
there's no other way to describe it, to really give them the 
resources and, quite frankly, not to speak for them but, I 
mean, I would imagine to plan year over year, out a few years 
in order to really get some long-range planning about how you 
tackle this and get down to AML, I think, is critically needed 
from an outside perspective as a stakeholder. They need those 
resources and they need the time to really attack it without 
worrying where their funding is coming from next year.
    Senator Hoeven. But that is why I asked if it is just a 
resource issue, and I would think the Chairman might be 
interested in this too, are there other obstacles?
    You talked about fertility control and some of these things 
that you need to--some of the things you probably are going to 
need to do to get ahead of that population that you have, get 
it down to the manageable level so you can then implement a 
sustainable program that includes all of these features. Is 
there pushback beyond just the funding or is it just the 
funding?
    Mr. Lane. There's always going to be pushback, I think, on 
the flanks. And I won't speak for Nancy or the humane advocate 
community. I know there's folks on there, on their flank that 
are concerned with a lot of these options. Certainly, in my end 
of the world, you know, there are folks that look at a proposal 
like this and say, gosh, it doesn't go far enough. I think 
that's the nature of a compromise, particularly one in an issue 
that is as loaded a topic as this one is. Litigation haunts 
this issue like it does every issue in the West, and there's no 
way around that reality.
    But I think what we can do as stakeholders that are 
invested in this is try to make some recommendations, try to 
work with Congress, try to work with the agencies to find a 
path that's reasonable and rational to those middle-ground 
users that have to live and work in these environments every 
day.
    Senator Hoeven. I agree. And I think building the coalition 
and coming up with a holistic plan really does make sense, and 
I thank you for doing that, as well as your efforts, Director, 
to implement it.
    Thank you, Mr. Chairman.
    Senator Lee. Thank you, Senator Hoeven.
    Mr. Tryon, what is the annual demand for adoption of wild 
horses?
    Mr. Tryon. So in 2018, we adopted roughly 4,600 animals. 
But we're going to increase that number, if not substantially--
--
    Senator Lee. What was that? What was that number you said?
    Mr. Tryon. 4,600.
    I want to say 10 or 15 years ago we exceeded 10,000 in a 
year. And so, adoption demand has gone down, but I'm cautiously 
optimistic that the adoption incentive, the financial payment 
that I mentioned a moment ago, is causing that number to rise 
again.
    Senator Lee. Is that the two installment payments of $500 
each?
    Mr. Tryon. Yes, sir.
    Senator Lee. And you do that because it is expensive to 
care for a horse and you are trying to offset the difficulty of 
that? That is the idea?
    Mr. Tryon. So, we spend roughly $2,000 a year to care for 
and feed a horse. If we spend $1,000, well, we've already made 
money for the taxpayers in the first year.
    Senator Lee. Right.
    Mr. Tryon. Project that out over 25 years that we hold an 
animal in holding. It's a substantial savings.
    Senator Lee. Right.
    The cost of the program was about $20 million per year, 20 
years ago. And then 10 years ago, it popped up to about $40 
million. We are now into the, what, $80+ million a year range?
    How much could this program cost the taxpayers in another 
five or ten years if we don't change something about our 
management practices or about the way it is going?
    Mr. Tryon. I think you could look at, sort of, a range of 
costs and it depends upon your optimism about contraceptives 
and how effective they could be and holding costs and whether 
we can continue to make progress with competition on driving 
down costs which we are still doing. And a lot of that depends 
on things like the price of beef and the willingness of 
ranchers to enter into the horse market in an up beef market. 
So a lot of that is hard to forecast.
    But I will tell you, Congress, at the enacted level, has 
appropriated $80 million for this program. We are using money 
from our Fish and Wildlife Conservation program, from our Range 
Management program, from Fire where it's appropriate, to rest 
in areas so we can reseed it. And we're essentially running a 
$95 million or $96 million program on the $80 million that 
Congress appropriated.
    Senator Lee. You are having to cannibalize those funds from 
other areas within the Department of the Interior, within the 
Bureau of Land Management?
    Mr. Tryon. I'm happy to say that the program leaders of 
those feel that it is an appropriate use of money to get the 
horses off of the rangelands where they're overpopulated or to 
get them out of sage grouse breeding areas.
    Senator Lee. Sure, no, I understand that.
    But the point is those programs are then deprived of 
something that they would otherwise be able to spend on 
something else.
    Mr. Tryon. That's fair.
    Senator Lee. How has litigation affected BLM's ability, 
effectively, to manage the wild horse population?
    Mr. Tryon. Mr. Chairman, it's no surprise to you, but this 
is a highly litigated subject. I want to say like at one point 
last year we were subject to more than 20 active cases of 
litigation. I think that number is closer to 10 now. There 
would be entire programs of the BLM that had no litigation 
presently. And so, I would say it is a substantial effect. 
Generally, the target involves our gather operations and how we 
run them and what we intend to do with the herd as we manage it 
over time.
    Senator Lee. Would you be willing to submit to the 
Committee a list of the proposed actions over the last ten 
years that have been litigated?
    Mr. Tryon. Absolutely, we can provide that.
    Senator Lee. Thank you.
    The 1971 Act gives the BLM the authority to sell excess 
animals for commercial production. But over the years that 
authority has been blocked by a series of annual appropriations 
riders enacted through Fiscal Year 2005 and then between 2005 
and 2009 there was a brief period in which those appropriations 
riders didn't apply and where BLM had the authority to sell 
animals for slaughter without limitation. The agency did not do 
so during that period. Is that right?
    Mr. Tryon. I would qualify that a little bit, Mr. Chairman. 
I would say the agency did sell, but we placed modest 
limitations in terms of the buyers having to attest that they 
would not resell, that they had no intention to enter the 
resale market. So we sold quite a number of animals during 
those years but it was with a bill of sale that had a clause in 
it.
    Senator Lee. Right, for no commercial production.
    Mr. Tryon. Yes, sir.
    Senator Lee. And why was that? Was that required by law?
    Mr. Tryon. It was not explicitly required by the law.
    Senator Lee. Is it implicitly required by the law?
    Mr. Tryon. Well, I was not in the position that I'm in 
today. My understanding of the intent of the managers at the 
time was that the public outcry was pretty strongly opposed to 
sale for commercial purposes and that we needed to do something 
to bar that from happening.
    Senator Lee. Mr. Lane and Ms. Perry, while we may not agree 
universally on every aspect of your proposed solution, I 
applaud you for working to try to solve this problem and to do 
so in a way that is humane and that recognizes the suffering 
that is taking place, and so I applaud you for your efforts.
    How many years does your plan span and can you tell me 
anything about that or how many holding facilities are 
contemplated or what it would do to the foaling rates?
    We will start with you, Ms. Perry.
    Ms. Perry. Okay, the proposal is modeled out over a ten-
year time period. And as I mentioned already, between years 
five and six we reached that equilibrium where horses that are 
removed are funneled into the adoption program and not, no 
longer ever need to go into long-term holding. So there's a 
savings that is realized at that point.
    But you're asking about the capacity of holding facilities 
in general and that's one of the interesting aspects of this 
proposal. We believe that by having an entirely non-lethal 
approach, we can attract a lot of public support to this 
program. There's a lot of anxiety out there about what the 
agency will or won't do, given the historic patterns.
    And so, by moving forward with a more unified approach and 
a humane, explicitly non-lethal approach, we may be able to 
gain the support of some private entities that would like to be 
involved in helping. And they would essentially apply for, 
through an RFP process, becoming those facilities.
    You're asking how many, and that's a very difficult 
question to answer because it would depend on how much each of 
those could hold.
    But we are aware of at least one organization that's 
looking into this, has secured property and is interested in 
acquiring as many as 50,000 horses. And we believe there would 
be others. It would, obviously, have to go through an RFP 
process so we have yet to know exactly what will materialize 
but we are optimistic.
    Senator Lee. It would take you about ten years to get to 
AML under this plan, is that right?
    Ms. Perry. Well, actually, we don't really get to AML. We 
get to a better balance. We get somewhere near AML with this 
ten-year proposal because we didn't want to focus specifically 
on AML, we wanted to get to a better sense of balance on the 
range. So the ten years would get us to around 33,000. So very 
close.
    Senator Lee. And then, what kind of management activity 
would be needed to take us from ten years into perpetuity?
    Ms. Perry. Ongoing management, just as we've advocated for 
over the years and that would involve the use of 
immunocontraceptives and then we assume technology over that 
time period will have advanced to the point where these 
vaccines are very long-lasting, some permanent vaccines are 
even being looked into. So the same exact technology that we 
know is efficacious now for several years, could potentially 
become permanent or could be very long-lasting.
    So there are all kinds of technologies being developed that 
would probably be in play at that point, but it would require 
maintenance. We are not contemplating, you know, the cessation 
of management of wild horses. This will be an ongoing program.
    Senator Lee. Mr. Goicoechea, how common is the use of 
sterilization among domestic horses?
    Dr. Goicoechea. Sterilization among domestic horses is very 
common. I mean, most of our males are, in fact, gelded. In the 
mares it's less common, but it is a common practice in some 
areas and there's a lot of old cowboys who have told me that 
the best gelding they ever rode was a spayed mare. So it is 
common practice.
    Senator Lee. Is it considered safe from a veterinary 
medicine standpoint?
    Dr. Goicoechea. Mr. Chairman, any surgical procedure comes 
with risks and there are inherent risks with any of them. Yes, 
it is safe and it is safe in domestics. Restraint becomes an 
issue, obviously. It is easier to handle and restrain and 
sedate a domestic mare than it is a wild mare. Now, there are 
those that are doing it and they are very efficient and 
effective at it.
    Senator Lee. Okay, but medically speaking, assuming you can 
control that factor----
    Dr. Goicoechea. Yes, sir.
    Senator Lee. ----the sedation, and once you can get the 
horse restrained and sedated, medically there should be no 
difference between performing that procedure on a wild mare 
versus a domestic mare?
    Dr. Goicoechea. The procedure itself, that is correct. 
There is no difference. Mares are mares.
    Senator Lee. So, why not rely more on that?
    Dr. Goicoechea. There is a post-operative effect, I think, 
and then there's also an emotional effect that comes into that. 
The BLM has not proven the efficacy and the safety of that yet 
through a study. They need to. And I applaud them for 
continuing to work on that and to try and get that done. But 
they are being hamstrung right now because that study has not 
been completed and NEPA has not been completed on that.
    Senator Lee. Ms. Perry, what are some of the concerns of 
your organization about these sterilizations for wild horse 
control?
    Ms. Perry. Thank you for asking.
    We certainly think any tool that would be employed under 
this proposal must be safe, effective and humane and we do not 
believe that has been shown yet with these sterilization 
techniques.
    And when we're speaking of mares--a gelding is an entirely 
different story--but for mares, comparing, you know, cats and 
dogs to wild horses, as has been done in some cases, is not 
really appropriate especially, you heard Mr. Goicoechea's 
explanation on that.
    But in reality, one of the other concerns that rises----
    Senator Lee. But what about comparing wild horses to 
domestic horses? Is that----
    Ms. Perry. Yes, yes, even there, obviously these animals 
are much more difficult to contain through the healing process, 
not used to being handled. Many of them will have a foal by 
their side if they're a fertile mare and that's obviously the 
population you would be looking at, more complicating, there's 
a very short window in which they're not impregnated. So we 
would probably be talking about pregnant mares. And I think we 
get into some very serious and sticky humane concerns.
    Senator Lee. Let's talk about those. What do you mean?
    Ms. Perry. So they would probably already be pregnant at 
the point a procedure was undertaken.
    Senator Lee. Right.
    Ms. Perry. Now it's not impossible that you would find 
mares that are not pregnant for this procedure, but that's a 
short window. And so, I think there is a great deal of concern 
about what the implications of that would be for the unborn 
foal. There could be a risk of infection and even abortion that 
would occur and that's, obviously, not the kind of program that 
we contemplate for these animals, especially----
    Senator Lee. So is that one of the concerns is that it 
could result in an abortion----
    Ms. Perry. A loss, yes.
    Senator Lee. ----of an unborn horse?
    Ms. Perry. Yes.
    There's also a huge scalability issue here. We don't have 
many veterinarians who are trained in this nor many willing or 
interested in becoming involved in that program as far as we 
can tell. And talking about the numbers of procedures that 
would have to be done for it to have any effect at all, it just 
doesn't seem like a particularly pragmatic thing to chase, 
especially, again, considering what a lightning rod this will 
be for controversy.
    That doesn't mean that it could be----
    Senator Lee. And most of that controversy, again, relates 
to the unborn horse?
    Ms. Perry. The risk to the mare herself. There's certainly 
infection rates that have to be worried about. There's a 
recovery period. There are concerns about, in particular, the 
colpotomy approach which is--all of these methods tend to be 
invasive and can cause bleeding and can cause infection and can 
cause death. These are concerns that a lot of advocates have.
    And again, especially when you juxtapose that, Senator, 
with the volumes of material that show the efficacy and 
safeness of the vaccinations that are available and how they 
are more long-lasting now so we don't even really need to be 
looking in this direction.
    Senator Lee. Although, it sounds from what I am hearing 
today like there is some debate over that, some debate over how 
long-lasting these other methods are?
    Ms. Perry. I'm not aware of any credible debate about that, 
to be honest.
    I mean, the BLM itself has been proclaiming efficacy of 
this vaccine over the years. I provided, you know, a number of 
studies and reports from government agencies--the BLM, U.S. 
Geological Survey, National Academy of Sciences--stating that 
this is safe, humane, effective, and the PZP-22 is meant to run 
for at least a two-year period and can be as effective out five 
years with a booster.
    So this is, and I know that that is already the current 
generation of the drug. So we are not talking about a brand-new 
technology. It is currently available. It is scalable to the 
portions that we need. So we feel strongly that these tools are 
available.
    I understand there's debate here among some of us on the 
panel about that, but I would welcome a deeper exploration of 
the science that is already available on that because I believe 
we're on solid ground. And what I would hate to see is for us 
to chase something that isn't practical, that is highly 
controversial and that will cause great delay because one of 
the things we're working against is recruitment every year, new 
population growth.
    And so, what we need to do is get on the ground with the 
tools we have now rather than wait for something to become 
tested and effective, if that makes sense.
    Senator Lee. Yes. Okay.
    I want to thank the witnesses for coming to testify today. 
This has been helpful. It has been informative.
    I want to submit to the record two letters I have 
received--one from the Utah Farm Bureau Federation and one from 
the Beaver County Commission in Utah.
    Both of those will be introduced into the record without 
objection.
    [Letters submitted for the record follow:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Senator Lee. We will keep the record open for a period of 
two weeks after this concludes, allowing members to submit 
additional questions, should they have any.
    This has been very informative, indeed. There are issues of 
compassion, and I respect the perspective each of you has 
brought to the table on this.
    There are, unfortunately, no easy solutions on this and 
even though some of us in the room may disagree with the other 
about what is most compassionate, I think all in the room do 
have compassion as the issue that they are focused on.
    I also appreciate, Ms. Perry, the attention you drew to the 
interest in the unborn horse. Life is significant. The fact 
that it has not yet been born, doesn't make it insignificant. 
That is something we should take into account.
    Thank you very much for being here. We stand adjourned.
    [Whereupon, at 4:31 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                          [all]
</pre></body></html>
